                                                              Enclosure A
                                              Benchmarking Comparison of Relocation Benefits6
                                                                                                                                                                 Employee
                                                           Federal
                         Postal                                         Office of                    Tennessee                                                   Relocation
                                       Federal Travel      Deposit                    Department                    Company         Company          Company
                         Service                                       Comptroller                     Valley                                                     Council
                                        Regulations       Insurance                    of Labor                       A7               B                C
                          (EAS)                                        of Currency                    Authority                                                    (ERC)
                                                         Corporation
                                                                                                                                                                  Survey8
   Number of
                         67,028        Not Applicable       5,400         3,000         16,848         11,460         5,100           70,000         100,000       Varies
    Workers
   Number of
                                                                                                                                                                Not Specified
Houses Acquired           1,022        Not Applicable        30            50             22             43             35              10             35
                                                                                                                                                                 in Survey
(Last Two Years)
    Average
                                                                                                                      Not                                       Not Specified
 Profit/(Loss) on       ($53,307)      Not Applicable     ($43,343)       None         Unknown        ($30,000)                    Not Available     $35,607
                                                                                                                    Available                                    in Survey
   Home Sale
                                                                                                                                                                6 percent of
 Home Purchase                          No, Agency                                                                                                               companies
                       $1,000,000                           None        $750,000        None9          None9          None9           None9           None9
    Ceiling                              discretion                                                                                                             offer with no
                                                                                                                                                                     limits
    Offer relocation                                                                                                                                            Not Specified
                           Yes               No            5 days         5 days          No             No           5 days          3 days           No
         leave                                                                                                                                                    in Survey
                                                                                                                                                                95 percent of
                                                                                                                                                                 companies
                                       $500/$1,000 or
                                                                                                                                                                 provide an
                                        actual NTE 1
    Miscellaneous                                                                                                                                                 allowance
                                         week salary                   2 weeks base                                  $5,000-
      Expense            $2,500                            $5,000                     $500/$1,000   $500/$1,000                   $4,000/$8,000        Yes          with no
                                         (single) or 2                    salary                                     $15,000
     Allowance                                                                                                                                                  requirement
                                        weeks’ salary
                                                                                                                                                                to itemize or
                                            (family)
                                                                                                                                                                  document
                                                                                                                                                                  expenses
                                                                                                                                                                99 percent of
                       3 trips (lump                                                                                                                             companies
    Advance House
                            sum             1 trip          1 trip        1 trip         1 trip         1 trip         1 trip          1 Trip         1 trip       cover for
     Hunting Trips
                        payment)                                                                                                                                 employees
                                                                                                                                                                 and spouse
                                                                                                                                                                35 percent of
                                                                                                                                                                 companies
    Dependents on
                                                                                                                                                     Spouse     cover one or
    Advance Round          Yes          Spouse Only         Yes            Yes        Spouse only   Spouse only         No              No
                                                                                                                                                      only           more
         Trip
                                                                                                                                                                 dependent
                                                                                                                                                                   children
   Child care for
    dependent
 remaining home                                                                                                     Included in                                 Not specified
                           No                No              No            No             No             No                       Included in Misc     No
  during advance                                                                                                       Misc                                      in survey
   round trip of
       parent
                                                                                                                                                                95 percent of
                                                                                                                                                                  companies
                         60 days        30 days or
     Temporary                                                                                                                                                   cover; most
                       (lump sum        actual NTE       30/60 days     14/7 days       60 days       60 days       30/60 days        30 days        30 days
    Quarters (TQ)                                                                                                                                               common time
                        payment)         120 days
                                                                                                                                                                   limit is 30
                                                                                                                                                                      days
     TQ Expense                                                          GSA Per                                                                                Not Specified
                           Yes              Yes            No limit                      Yes        $1,850/$1,550      Yes              No           No limit
       Limits                                                           Diem Rate                                                                                  in Survey
                                                                                                                                                                62 percent of
                                                                                                                                                                  companies
 Return Trips to                                                                                                          2
                          1 trip             No            2 trips         No             No             No                           2 trips          Yes      intend a lump
Former Residence                                                                                                    trips/month
                                                                                                                                                                sum payment
                                                                                                                                                                 to cover this
   Return trip to
 former residence                                                                                                                                               Not specified
                           No                No              No            No             No             No            Yes        Yes; Final Trip      Yes
to escort family to                                                                                                                                              in survey
 new duty station
                                                                                                                                                                50 percent of
    Expenses while                                                                                                                                                companies
    en route to new        Yes              Yes              No            Yes           Yes            Yes            Yes              Yes            Yes      intend a lump
        location                                                                                                                                                sum payment
                                                                                                                                                                 to cover this
                                                                                                                                                                77 percent of
                                                                                                                                                                companies do
                                                                                                                                                                  not require
    Use of RMF for:                       Agency                                         Yes; not
                           Yes                               No            Yes                          Yes            Yes              Yes            Yes           their
    Home Purchase                        Discretion                                   through RMF
                                                                                                                                                                employees to
                                                                                                                                                                use a specific
                                                                                                                                                                    lender




6
  We contacted General Services Administration (GSA), Department of Defense (DOD), and Federal Reserve in St. Louis. However,
we did not receive responses to all our questions. GSA officials stated they have no home purchase ceiling, and DOD has a ceiling of
$750,000. We also contacted 18 other private companies, but they did not provide responses.
7
  Due to concerns about publishing confidential commercial information from private companies who assisted us, we have redacted
their actual names - This applies to columns titled Company A, Company B, and Company C.
8
  Relocation Assistance: Transferred Employees. This is a comprehensive picture of the programs that facilitate employee mobility
prepared by the Worldwide Employee Relocation Council®, 2009.
9
  Uses an average of two appraisals; an additional third appraisal is used if the difference between the first two is significant.
                                                                     6
                                                                                                                                                                Employee
                                                          Federal
                        Postal                                         Office of                  Tennessee                                                     Relocation
                                      Federal Travel      Deposit                   Department                 Company        Company          Company
                        Service                                       Comptroller                   Valley                                                        Council
                                       Regulations       Insurance                   of Labor                    A7              B                C
                         (EAS)                                        of Currency                  Authority                                                        (ERC)
                                                        Corporation
                                                                                                                                                                  Survey8
                                                                                                                                                              77 percent of
                                                                                                                                                              companies do
 Use of RMF for:                                                                                                                                                not require
                                         Agency
   Marketing              Yes                               Yes          Yes            No           Yes          Yes            Yes               No                 their
                                        Discretion
   Assistance                                                                                                                                                 employees to
                                                                                                                                                              use a specific
                                                                                                                                                                    lender
                                                                                                                                                              77 percent of
                                                                                                                                                              companies do
 Use of RMF for:                                                                                                                                                not require
                                         Agency
  Home Finding            Yes                               Yes          Yes            No           Yes          Yes            Yes               No                 their
                                        Discretion
   Assistance                                                                                                                                                 employees to
                                                                                                                                                              use a specific
                                                                                                                                                                    lender
                                                                                                                                                              77 percent of
                                                                                                                                                              companies do
                                                                                                                                                                not require
 Use of RMF for:                         Agency                                        Yes; not
                          Yes                               Yes          Yes                         Yes          Yes            Yes               No                 their
Household Goods                         Discretion                                  through RMF
                                                                                                                                                              employees to
                                                                                                                                                              use a specific
                                                                                                                                                                    lender
                                                                                                                                                              90 percent of
 Home Purchase                                                                                                                                                  companies
                          Yes              Yes              Yes          Yes           Yes           Yes          Yes            Yes               No
   Expenses                                                                                                                                                     provide this
                                                                                                                                                                   benefit
                                                                                                                                                              90 percent of
     Home Sale                                                                                                                                                  companies
                          Yes              Yes              Yes          Yes           Yes           Yes          Yes            Yes              Yes
     Expenses                                                                                                                                                   provide this
                                                                                                                                                                   benefit
                                                                                                                                                              77 percent of
                                                                                                                                                                companies
                                                                                                                                                                 make this
Equity Loss-Loss
                                                                                                                                                                assistance
   on Sale of                                            Yes, up to    Yes, with                               Yes, up to     Yes, up to
                          Yes               No                                          No           No                                           Yes            generally
    Previous                                              $50,000       limits.10                               $10,000        $10,000
                                                                                                                                                                available to
  Residence
                                                                                                                                                              all transferred
                                                                                                                                                              employees in
                                                                                                                                                                all locations
                                                                                                                                                              Not Specified
     50-mile rule         Yes              Yes              Yes          Yes           Yes           Yes          Yes            Yes              Yes
                                                                                                                                                                 in Survey
                                                                                                                                                              40 percent of
                                                                                                                                                                companies
                                                                                                                                                              report paying
                                                                                                                                                                  discount
Loan Origination
                       1 percent           Yes              Yes          Yes         1 percent    1 percent       No             Yes              Yes           points, with
 Fee or Points
                                                                                                                                                                  the most
                                                                                                                                                                  common
                                                                                                                                                              amount being
                                                                                                                                                                 1.0 point.
                                                                                                                                                              42 percent of
                                                                                                                                                               respondents
                                                                                                                                                                   provide
                                                                                                                                                                 mortgage
                                                                                                                              Yes; called
     Shared            PCES in                                                                                                                                  buy-downs,
                                                                                                                               Mortgage
Appreciation Loan     select cities         No              No            No            No           No           No                               No                either
                                                                                                                               Buydown
 (SAL) Program        and Officers                                                                                                                             temporary or
                                                                                                                               Subsidy
                                                                                                                                                                permanent,
                                                                                                                                                              on a formal or
                                                                                                                                                              case-by-case
                                                                                                                                                                    basis.
                                                                       No; Use
Mortgage Interest                                                      Mortgage                                                                Yes, if over   Not Specified
                          No                No              Yes                         No           No           No              No
  Differential                                                         Subsidy                                                                  8 percent      in Survey
                                                                       Program
                                                                                                                                                              91 percent of
Household Goods                                                                                                                                 180 days
                        60 days       Up to 180 days      60 days         No          90 days      90 days      60 days        60 days                          companies
    Storage                                                                                                                                       max
                                                                                                                                                                   cover
                                                                                                                                                                93 percent
                                                                                                                                                                also assist
 Tax Assistance-
                                         Agency                                                                                                               the employee
 Federal Income           Yes                               Yes          Yes            No           Yes          No              No              Yes
                                        Discretion                                                                                                                  with
      Tax
                                                                                                                                                              additional tax
                                                                                                                                                                  liability
  Calendar Year-
  end Relocation                                                                                                                                              Not Specified
                          Yes              Yes              Yes           No           Yes           No           No             Yes               No
    Income Tax                                                                                                                                                 in Survey
     Allowance
 Surviving spouse                                                                                                                                             Not Specified
                          No                No              No           Yes           Yes           No           No              No               No
relocation benefits                                                                                                                                            in Survey
                                                                                                                                  Yes;
Spouse job search                                                                                                                                             Not Specified
                          No                No              No           Yes            No           No           No        International to       No
   expenses                                                                                                                                                    in Survey
                                                                                                                               U.S. only
                                      Yes, for Senior
                                                         Yes, with
     Relocation                         Executive                                     SES
                                                         years of                                                                                             Not Specified
     benefits for     PCES Only       Service (SES)                       No        employees        No           No              No               No
                                                          service                                                                                              in Survey
      Retirees                         employees                                      only
                                                         minimum
                                           only




10
  Responsible for first 5 percent loss from original purchase price (maximum $25,000, if using a relocation company, and $35,000 if
not).
                                                                     7
                                                                                                                                                      Employee
                                                      Federal
                       Postal                                      Office of                    Tennessee                                             Relocation
                                   Federal Travel     Deposit                     Department                 Company      Company        Company
                       Service                                    Comptroller                     Valley                                               Council
                                    Regulations      Insurance                     of Labor                    A7            B              C
                        (EAS)                                     of Currency                    Authority                                              (ERC)
                                                    Corporation
                                                                                                                                                       Survey8
                                                                                                                                                     78 percent of
     Different                                                                                                                                        companies
relocation polices                                                                                                                                    have tiered
                         Yes            Yes             No             No             No           Yes          No            No           Yes
for Executives vs.                                                                                                                                   policy based
 Non-Executives                                                                                                                                      on salary and
                                                                                                                                                       job level
    Require the
     relocating
                                                                                                                                                     87 percent of
   employee to
                                                                                                                                                      employers
 list/market their       Yes       Not Available        No            Yes            Yes           Yes         Yes            No            No
                                                                                                                                                        require
 home (if selling
                                                                                                                                                     participation
one) before using
      the RMF
 Typical contract
                                                                                                               Not                         Not       Not Specified
 terms if using a     Firm Fixed   Not Available     Cost Plus     Fixed Fee      Percent Fee    Standard                Not Available
                                                                                                             Available                   Available    in Survey
        RMF
How RMF is paid       Per Fee                                     Percentage of                                Not                                   Not Specified
                                   Not Available     Fixed fee                    Percentage     Invoiced                Not Available   Flat Fee
    for services      Schedule                                     home value                                Available                                in Survey
RMF shares in the
                                                                                                                                                     Not Specified
 profit/loss of the      No        Not Available        No             No             No           No           No           Yes            No
                                                                                                                                                      in Survey
     home sale




                                                                                    8
                                                             Enclosure B
                      Relocation Costs for Home Purchases in Excess of $1 Million from January 2007 – March 200911


File Number                        192662112             1798971               1724964              1746977            1597958            1779351           1764607 
Postal Service Area 
Location                         Capital Metro            Pacific              Pacific              Southeast        Capital Metro        Pacific           Southeast 
                                                                                                                                                                  
Home Finding                                                                                                                  $3,538                     
En Route Trip                                                  $1,549                  $755             $1,248                                                      $1,405  
Home Sale Incentive                                                                                     $5,000                                         
Household Goods Moving                 $21,252               $14,692               $25,556             $12,245                $8,340         $37,588               $15,678  
Household Goods Storage                   $6,234              $1,610                $2,018                                                    $7,194                $1,722  
Lump Sum Payments                      $16,075               $11,997               $10,872             $14,967                               $12,690               $20,750  
Miscellaneous Allowance                   $2,500              $2,500                $2,500              $2,500               $10,000          $2,500                $2,500  
New Home Closing Costs                    $5,531              $2,222                $5,819              $9,192               $18,150          $8,888   
Other                                        $27               $112                  $111                $202                  $205              $98                 $138  
Loss on Home Sale                                           $112,500              $112,500                  $0                    $0        $263,433            $1,700,000 
Departing Home Costs 
(including Broker Fees)                 $13,250              105,680              $100,084            $106,282                 $92,342      $192,466              $222,760 
Tax Assistance                          $11,405               10,580               $10,795              $8,158                 $14,605        $8,990                $7,959  
Total                                  $76,27413            $263,442              $271,010            $159,794                $147,180      $533,847            $1,972,912 




11
   In addition to the costs included in this schedule, the Postal Service receives a credit from the RMF on each home sale.
12
   This home has not yet been sold. Therefore, some of the relocation costs have not yet been incurred.
13
   Any addition differences are due to rounding.
                                                                                               9
